      U.S. MILITARY ENTRANCE PROCESSING COMMAND



Report Number 98-145                       June 3, 1998




             Offke  of the Inspector General
                  Department of Defense
 Additional Copies

 To obtain additionai copies of this evaluation report, contact the Secondary Reports
 Distribution Unit of the Analysis, Planning, and Technical Support Directorate at
 (703) 604-8937 (DSN 664-8937) or FAX (703) 604-8932 or visit the Inqector
 General, DOD, Home Page at: WWW.DODIG.OSD.MIL.

 Suggestions for Future Audits or Evaluations
 To suggest ideas for or to request future audits or evaluations, contact the Planning
 and Coordination Branch of the Analysis, Planning, and Technical Support
 Directorate at (703) 604-8908 (DSN 664-8908) or FAX (703) 604-8932. Ideas and
 reqUestsCXUlalsobemailedto:

                     OAIG-AUD (ATTN: APTS Audit Suggestions)
                     Inspector General, Department of Defense
                     400 Axmy Navy Drive (Room 801)
                     Arlington, Virginia 22202-2884

 Defense Hotline

 To report fkaud, waste, or abuse, contact the Defense Hotline by calling
 (800) 424-9098; by sending an electronic message to Hotline@DODIG.OSD.MIL;
,or by writing to the Defense Hotline, The Pentagon, Washington, D.C. 20301-1900.
 The identity of each writer and caller is fully protected.




Acronyms

ASVAB                Anned Services Vocational Aptitude Battery
                     Command Logistics Evaluation and Assistance prOgram
                     Education Services Specialist
                     Management Assistance and Training Team
                     Military Entranw Processing station
                     U.S. Military Entranw Processing Command Integrated
                       Resources System
USMEPCOM             U.S. Military &rance Processiq command
                            INSPECTOR GENERAL
                            DEPARTMENT OF DEFENSE
                              400 ARMY NAVY DRIVE
                            ARLINGTON, VIRGINIA 22202




                                                                           June 3, 1998

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR PERSONNEL
                 AND READINESS
               AUDITOR GENERAL, DEPARTMENT OF THE ARMY
               COMMANDER, UNITED STATES MILITARY
                 ENTRANCE PROCESSING COMMAND
SUBJECT: Evaluation Report on the U. S. Military Entrance Processing Command
         (Report No. 98-145)

        We are providing this evaluation report for review and comment. We
considered management comments on a draft of this report in preparing the final
report.

        DOD Directive 7650.3 requires that all unresolved issues be resolved promptly.
Comments from the U.S. Military Entrance Processing Command were partially
responsive. Therefore, the U.S. Military Entrance Processing Command is requested
to provide additional comments on Recommendations B.3.) B.4. and C. and comment
on the potential monetary benefits related to Recommendations A. 1. and B. 1. and the
revised potential monetary benefits related to Recommendation B.3. by July 3, 1998.
        We appreciate the courtesies extended to the evaluation staff. Questions on the
evaluation should be directed to Mr. Richard A. Brown at (703) 604-9483
(DSN 664-9483) (rbrown@dodig.osd.mil). See Appendix D for the report distribution.
The evaluation team members are listed inside the back cover.




                                        Robert J: Lieberman
                                     Assistant Inspector General
                                            for Auditing
                        Office of the Inspector General, DOD
Report No. 98-145                                                         June 3,199s
   (Project No. 7RB-9035)

                 U.S. Military Entrance Processing Command

                               Executive Summary

Introduction. The U.S. Military Entrance Processing Command (USMEPCOM) is a
jointly staffed field operating agency of the Assistant Secretary of Defense (Force
Management Policy), under the Under Secretary of Defense (Personnel and Readiness).
USMEPCOM is a part of the DOD Accession Triad that includes the Military
Recruiting Services and the Military Training Reception Centers. USMEPCOM
comprises a headquarters, located in Chicago, Illinois; 2 sector (regional) offices
located in Chicago, Illinois, and Denver, Colorado; and 65 military entrance processing
stations (MEPS) located in commercial facilities, Federal space, and on military
installations throughout the continental United States, Alaska, Hawaii, and Puerto Rico.
The primary mission of USMEPCOM is to administer enlistment qualification tests and
a medical examina tion to all applicants for enlistment in the Services, to include the
Reserve components and the U.S. Coast Guard and, when required, Selective Service
System registrants. During FY 1997, USMEPCOM conducted 529,000 enlistment
tests and 401,000 medical examinations and 364,000 applicants were enlisted into the
Military Services. The budget and staffing for USMEPCOM in FY 1997 was
$138 million and 2,661 civilian positions and military billets, respectively.

Evaluation Objectives. The evaluation objective was to determine the efficiency and
economy of USMEPCOM operations. We also reviewed the adequacy of the
management control program related to the evaluation objective.

Evaluation Results. USMEPCOM was accomplishing its mission in accordance with
established operational requirements. However, the following areas needed
improvement.

       - The organizational structure of USMEPCOM needed to be streamlined and
made more efficient. In addition, leased facility costs of about $387,000 over the
Future Years Defense Program (FYs 1999 through 2004), starting in FY 2oo0, could
be avoided (Finding A).
        - Of the 834 civilian positions and military billets reviewed at the
USMEPCOM, 355 either lacked consistency with the duties assigned, were
unsupported, were not .aligned to provide equal support to each DoD student testing
program market, or were not mission essential. As a result, USMEPCOM could
elimiite 65 to 75 civilian positions and put about $12 million over the Future Years
Defense Program to better use, realign 130 civilian positions to promote expansion of
the DOD Student Testing Program and maximize efficient use of the positions, and
reassign 66 military personnel to more essential functions within the Services and put
about $15 million over the Future Years Defense Program to better use (Finding B).
       - USMEPCOM had not complied with DOD requirements governing the
Commercial Activities Program. Specifically, USMEPCOM did not submit the
FY 1996 inventory of commercial activities to the Office of the Under Secretary of
Defense for Acquisition and Technology. As a result, DOD could not assess the extent
to which commercial and industrial functions at USMEPCOM were being performed
by DOD civilian employees or private contractors (Finding C).
Management Controls. Management controls applicable to USMEPCOM fimctions
were inadequate (Findings B and C). See Appendix A for details on the review of the
management control program.
Summary of Recommendations. We recommend that the Commander,
USMEPCOM, review the Command’s internal missions and organizations; consolidate
and reduce the number of oversight functions; conduct an independent review to
eliminate budget positions, realign education services specialist and test coordinator
positions, determine the appropriate number of health technician positions, and reassign
military laboratory technician billets to their respective Services; and modify the
existing contract for Human Immunodeficiency Virus screening to include syphilis
testing, if the test is not eliminated from MEPS medical processing. Finally, we
recommend that the Commander, USMEPCOM, implement the requirements
governing the Commercial Activities Program.

Management Comments. The USMEPCOM concurred with the recommendation to
perform a functional review of its Headquarters and sector elements and their missions.
It stated that the recommendation will be pursued from two directions. IntemalIy, by
continuing to implement the USMEPCOM Strategic Plan, which calls for identifying
command-wide processes for possible reengineering and outsourcing to cost-effectively
meet customer needs. Externally, the Army Manpower Analysis Agency was contacted
regarding manpower reviews. The strategic plan initiative and manpower reviews will
begin the process of determining the correct number and need for positions. Regarding
the military laboratory technicians and syphilis testing, USMEPCOM concur& and
stated that the decision to eliminate the syphilis test is under review within the Office of
the Under Secretary of Defense (Personnel and Readiness). If the deletion is approved,
the military laboratory technician billet will be negated, but that function wiIl remain.
Finally, USMEPCOM concurred with the recommendation to implement the
requirements governing the Commercial Activities Program. See Part I for the
discussion of management comments and Part III for the complete text of comments.

Evaluation Response. We generally consider the USMEPCOM comments on the
recommendations to be responsive; however, USMEPCOM did not comment on the
associated potential monetary benefits, which have been revised. USMEPCOM
comments to determine the appropriate number of health technicians needed for each
MEPS ark not fully responsive. We believe the recommendation is still valid because
USMEPCOM has not performed a manpower review to determine if replacement with
military health technicians would be required considering each MEPS has at least one
health technician assigned. Also, USMEPCOM did not comment on what course of
action it would take if the syphilis test is not eliminated from MEPS medical processing
of recruits. Although USMEPCOM concurred with the recommendatkzi goveming the
Commercial Activities Program, it did not indicate what actions it has u&en or plans to
take to comply with the program or specify a date by which actions would be complete.
Therefore, we request that the Commander, USMEPCOM provide additional comments
on three recommendations and the revised potential monetary benefits by July 3, 1998.




                                             ii
Table of Contents
Executive Summary                                                                i
Part I - Evaluation Results
      Evaluation Background                                                     2
      Evaluation Objectives                                                     3
      Finding A. U.S. Military Entrance Processing Command Organizational
                 Structure and Oversight Efficiency                             4
      Finding B. U.S. Military Entrance Processing Command Staffmg
                 Efficiency
      Finding C. Inventory of Commercial Activities                         ::

Part II - Additional Information
      Appendix A. Evaluation Process
        Scope and Methodology
        Management Control Program                                          4:
        Summary of Prior Coverage
      Appendix B. Other Matters of Interest                                 z
      Appendix C. U.S. Military Entrance Processing Command
                  Organizational Structure                                  28
      Appendix D. Report Distribution                                       30

Part III - Management Comments
      U.S. Military Entrance Processing Command Comments                    34
Part I - Evaluation Results
Evaluation Background

    History of U.S. Mllltary Entrance Pr ocesdng Command. The U.S. Military
    Entrance Processing Command (USMEPCOM) was established on July 1, 1976,
    as a Department of the Army field operating agency. It was established under
    the jurisdiction of the Deputy Chief of Staff for Personnel, Headquarters,
    Department of the Army. In FY 1993, the Assistant Secretary of Defense for
    Force Management Policy assumed the operation and organization management
    of USMEPCOM, thus making it a field operating agency of the Assistant
    Secretary. The Assistant Secretary placed policy guidance and the immediate
    management of USMEPCOM under the jurisdiction of the Director for
    Accession Policy. The Army retained executive agent responsibilities for
    administrative and resource support. On October 1, 1997, executive agent
    responsibilities were transferred from the Army Deputy Chief of Staff for
    Personnel to the Army Training and Doctrine Command(see Appendix C). In
    its over N-year history, USMEPCOM has undergone several major
    reorganizations and internal realignments to meet future challenges, to gain
    efficiencies, or to reduce costs. USMEPCOM comprises a headquarters,
    located in Chicago, Illinois; 2 sector (regional) offices located in Chicago,
    Illinois, and Denver, Colorado; and 65 military entrance processing stations
    located in commercial facilities, Federal space, and on military installations
    throughout the continental United States, Alaska, Hawaii, and Puerto Rico.

    Mission and Functions. The primary mission of USMEPCOM is to provide
    qualification tests and a medical e xamination to all applicants for enlistment in
    the Services, including the Reserve Components and the U.S. Coast Guard.
    When required, USMEPCOM will process Selective Service System registrants
    and induct them into the military. The function of Headquarters, USMEPCOM
    and its two sectors is to command and control all USMEPCOM organizations.
    Headquarters establishes policy; develops and manages the overall requirements,
    plans, programs, and budget; maintains liaison with other DOD, Federal, and
    commercial activities; and provides the overall supervision of assigned civilian
    and military personnel. Headquarters also operates the Joint Computer Center,
    which processes and maintains the USMEPCOM Integrated Resources System
    (MIRS) and Selective Service System records.

    The eastern and western sectors provide day-today command and control of the
    operations of each assigned Military Entrance Processing Station (MEPS). The
    sectors also perform staff assistance visits and provide operational advice and
    assistance to the MEPS.
    The mission and function of a MEPS is to operationally process an applicant by
    administering the preenlistment tests, performing a medical examination, and
    conducting a background screening. If an applicant successfully completes each
    of the phases, then the applicant takes the enlistment oath and is transported to
    the respective Service training reception center. Administrative processing of
    applicants is performed through MlRS. The MEPSs also provide financial
    management services for control of the meals and lodging program; coordinate



                                        2
     contract negotiations; and serve as the contracting officers representative, as
     well as perform contract quality assurance functions for services or support
     provided under commercial contract.


Evaluation Objectives
     The evaluation objective was to determim the efficiency and economy of the
     USMEPCOM operations. We also reviewed the management control program
     related to the evaluation objective. See Appendix A for a discussion of the
     scope and methodology, a discussion of our review of the management control
     program, and a summary of prior coverage. See Appendix B for a discussion of
     USMEPCOM actions to become Year 2000 compliant and explore available
     options for outsourcing medical examinations.
            Finding A. USMEPCOM Organizational
            Structure and Oversight Efficiency
            The organizational structure of USMEPCOM could be streamIined.
            Specifically, the use of decentralized sectors did not provide the most
            efficient organization structure. Further, oversight was duplicated. This
            occurred because USMEPCOM made organization and management
            decisions without clearly defining organizational responsibilities and
            without conducting thorough analyses. As a result, the organizational
            structure of USMEPCOM did not lend itself to economies and was
            inefficient. In addition, leased facility costs of about $387,000 over the
            Future Years Defense Program (FYs 1999 through 2004), starting in
            FY 2000, could be avoided.


Review and Inspection Policies

     DOD Policy. DOD Instruction 5010.37, “Efficiency Review, Position
     Management, and Resource Requirements Determination,” November 17, 1987,
     provides the criteria, guidance, policy, and procedures for implementing the
     DOD efficiency review process, in support of the DOD Productivity Program.
     The Instruction provides policy for managing, providing resources, and
     evaluating DOD organizations based on output performance requirements and
     standards documented in performance work statements. It states that the
     efficiency review process shall be the basis for continued and directed efforts
     for effectiveness, efficiency, improvement, performance, and productivity.

     Inspection Policy. The Department of the Army is the executive agent for
     USMEPCOM. Therefore, USMEPCOM uses Army Regulation 20-l.
     “Inspector General Activities and Procedures,” March 15, 1994, to provide
     guidance for implementing an organization inspection program. The Regulation
     states that an inspection program will be conducted through a deliberate process
     to identify, evaluate, and prioritize potential inspections; that analysis and
     planning should ensure that inspection resources are employed in areas that
     provide the highest payoff to the commander; and that inspections should
     attempt to determine the magnitude of the deficiency, identify substandard
     performance and seek the root cause, pursue systemic issues, and identify
     responsibility for corrective action. Accordingly, USMEPCOM should conduct
     general inspections as part of an organization inspection program, on individual
     MEPS.


Organizational Structure and Management

     Structure of USMEPCOM. The organizational structure of USMEPCOM
     could be streamlined. Specifically, the use of decentralized sectors did not
     provide the most efficient organization structure. In response to the dynamics
                                         4
Finding A. USMEPCOM Organizational           Structure and Oversight Efficiency



of its mission, USMEPCOM affected three major reorganizations during the
past 5 years. In each case, the justification for those changes was to improve
management structure and responsiveness to the immediate needs of the
command and to eliminate duplication and overstaffing. However,
reorganization decisions were made without thorough analyses. Specifically,
the Command’s procedures and processes have not been fully measured and
complete workload evaluations have not been performed. As a result, the
organizational structure of USMEPCOM did not promote efficient command
and control.
Management Within USMEFCOM.             The management functions of
Headquarters, USMEPCOM and the eastern and western sectors were not
clearly defined. Headquarters is responsible for developing policies and plans
for implementation of mission requirements and conducting analyses to improve
the command’s processes and procedures. The sectors affect command and
control and provide day-today management of their assigned MEPS operations.
Examples of unclearly defti    management functions follow. The sectors were
frequently bypassed during coordination of applicant processing functions
between Headquarters and the individual MEPS. In addition, the MEPS were
often told to contact Headquarters directly, because the necessary ftmctional
personnel were not available at the sector. Also, Headquarters added to the
confusion by occasionally tasking MEPS directly and without sector knowledge,
thereby circumventing the established chain of command. Because of the
perceived chain of command, operations personnel at Headquarters, frequently
responded to questions from MEPS pxsonneA regarding day-today and routine
operations. Another example of functions not clearly defined was the Saturday
openings of MEPS for applicant processing. Although the responsibility for
coordinating MEPS Saturday processing lies with the sectors, we found that
Headquarters mandates the actual schedule.

Decentraked Sectors. Decentralized sectors did not provide the most efficient
organization structure. USMEPCOM believed that sectors were necessary to
provide effective command and control. We agree that the sectors are
necessary, but we believe that a centralized sector facility could provide greater
economies and effkiencies. The sector could use Headquarters, USMEPCOM
expertise and supporting resources and could help ensure that Headquarters and
all sectors speak with one voice. Collocating the western sector headquarters in
Chicago with the eastern sector and using Headquarters, USMEPCOM
personnel would also allow sector personnel the opportunity to accomplish
required assistant visits with staffii augmented by Headquarters personnel,
while maintaining a sufficient number of operations personnel at the office to
support assigned MEPS.

Potential Benefits.  The collocation of the sector headquarters could allow
economies to be achieved and funds to be put to better use. Using
Headquarters, USMEPCOM, staff and support resources could allow for a
reduction of each sector’s staff. The western sector’s leased facility costs of
about $387,000 over the Future Years Defense Program (FYs 1999 tbrougb
2004), starting in FY 2000, could be put to better use.



                                     5
Finding A. USMEPCOM Organizational Structure and Oversight Effkiency



Oversight and Review Functions
      Oversight Entities. Four USMEPCOM entities were conducting duplicate and
      overlapping oversight and performing review and train@ functions. In
      addition, the MEPSs were conducting self evaluations of their operations by
      way of the Command Inspection Program. The entities and their associated
      functions include the USMEPCOM Inspector General, the OBice of Internal
      Review and Audit Compliance, the Command Logistics Evaluation and
      Assistance Program (CLEAP), and the Sector Assistance Visit teams. Also,
      another headquarters USMEPCOM review and oversight entity, the
      Management Assistance Training Team (MATT) was being proposed for
      reinstatement.

     Oversight Functions. The Inspector General reports to the Commander,
     USMEPCOM, on matters pertinent to the performance of mission and the state
     of discipline, economy, efficiency, and morale of USMEPCOM; performs
     inquiries, inspections, and investigations; provides assistaxe; teaches; and
     trains. As part of its mission, the Inspector General performs general
     inspections at MEPSs. Because the Inspector General implements the
     Organization Inspection Program, the general inspections should be
     systematically focused and cover mission programs and significant functions.
     The Office of Internal Review and Audit Compliance performs single-point
     audits and functional reviews and advises and assists the Commander on the
     state of Command internal controls. The CLEAP team conducts logistics
     reviews of the MEPS whereas the MATT is being proposed to provide
     management, technical assistance, and tmining to the MEPS, through the
     conduct of work flow and regulatory compliance reviews on the MEPS
     operations, processes, and procedures. The sector assistance visit team analyzes
     and evaluates the MEPS operation and support missions and provides individual
     and mission-related train@ to MEPS personnel. Finally, the individual MEPS
     command inspection programs promote a self-evaluation process.

     R&viewSimilarities. The USMEPCOM Inspector General and the Office of
     Internal Review and Audit Compliance conducted oversight on the same
     functional areas; general inspections and sector assistance visits were similar in
     scope. The CLEAP and MATT functions will be conducted similar to both
     Inspector General and Internal Review programs and will review the same
     operational and functional areas.

     Roth the USMEPCOM Inspector General and the Office for Internal Review
     and Audit Compliance performed reviews on MEPS functional areas to include
     medical examina tion procedures, the Amusement Vending Machine Fund
     Program, financial management operations, and other logistic and support
     functions. Roth entities conducted checklist type reviews that were oriented and
     based on compliance with USMEPCOM regulations.
     The USMEPCOM general inspection and sector assistance visits were similar in
     scope and reflected a duplication of effort. Roth programs utilized the same
     checklist from Headquarters, USMEPCOM 20-series Circular, “Assistaixe,
     Inspections, Investigations, and Follow-up, USMEPCOM Checklist,”

                                          6
Finding A. USMEPCOM Organizational Structure and Oversight Efficiency



February 1, 1996, to report on the MEPS compliance with individual functional
processes and procedures. In addition, the guidance and training provided
during the reviews were duplicated.
The intent of the CLEAP and the MATT were similar to both the inspection and
internal review process. Both the CLEAP and MATT looked at some of the
same operation and functional areas that are looked at during an inspection or
internal review. The CL         was conducted at a MEPS by headquarters
logistics personnel, who reviewed the logistic functional areas, identified
problems, and initiated corrective action on the identified procedural
deficiencies. At least one-third of the MEPS are covered each year. The
MATT, after being reinstated, will be conducted by headquarters personnel and
will look at some of the same operational areas to determine whether the MEPS
is in compliance with regulatory guidance, suggest changes to processing
procedures, and provide training to correct identified processing problems.

Given those c’ncumstances, the same MEPS functional areas could be reviewed
by USMEPCOM organizations up to four times in 2 years. For instance, at
MEPS Albuquerque, New Mexico, a sector assistance visit was performed in
November 1996 and a general inspection was performed in January 1997. That
same MEPS is scheduled to receive a CLEAP in May 1998 and another
assistance visit in November 1998. See Table 1 for additional examples of
redundancy among USMEPCOM oversight entities.

             Table 1. USMEPCOM Oversight and Review Functions

 Section or Function Review                   Headquarters Organizations       Sector
 (Stxcific Process Reviews)          @’         I&&        CLEAP       MAT?    &&
 Administrative Function             X                                           X
    Personnel management             X            X                              X
 Logistics Functions                 X                        X
    AVlUti Program                   X            X                              X
    IMPAC’ Program                   X            X           x   -
    Property summary                 X            X           X
    Reports of Survey                X            X           X
 Medical Section                     X                                     X     X
    Applicant processing             X            X                              X
    DAT/HIV logs                     X            X                              X
 Operation Section                   X                                     X     X
    Automation Security              X            X                              X
 Testing Section                     X                                     X     X
 (corrective training provided)      X                        X            X     X

 ’ Inspector General
 ’ Internal review and audit compliance.
 3 Management assistance and training teams, proposed for reinstatement.
 ’ Staff assistance visits.
 ’ Amusement and Vending Machine fund.
 6 International merchant purchase authorization card.
 ‘IDrug and alcohol testing and Human Immunodefkiency Virus.
Finding A. USMEPCOM Organizational        Structure and Oversight Effkiency



     Conflicting Guidance for MEPS Personnel. The MEPS personnel
     received conflicting guidance from the headquarters and sector review
     personnel. For example, during a FY 1996 general inspection, the MEPS
     Kansas City, Missouri, was found to be noncompliant in the conduct of a
     physical examina tion procedure. Citing Atmy Regulation 40-501,
     “Medical Services: Standa& of Medical Fitness,” August 30, 1995, as
     the criteria, the inspection reported that the MEPS physician did not
     examine the nasal passages of applicants. However, the western sector
     chief medical officer found the procedures for required medical
     examinations to be in compliance because USMEFCOM Regulation 40-1,
     “Medical Services: Medical Processing and Examinations,” January 29,
     1997, did not require examina tion of nasal passages. Also, as part of the
     USMEPCOM review process, MEPS personnel received on-site train&
     to correct identified deficiencies. However, this has been an additional
     source of confusion. As reflected in the case of MEPS Kansas City,
     Missouri, the reports of an inspection and a staff assistant visit conducted
     on the same MEPS, showed that the noncompliance was attributed to
     conflicting guidance and train& provided during the review process.

     Effkiency Review Process. A thorough review and analysis of headquarters
     and sectors oversight entities had not been performed to clearly define
     organizational responsibilities. Also, a functional review and analysis of each
     oversight entity’s mission and responsibilities, its methodology and planning
     criteria, and the sources and deconfliction of on-site training had not been
     performed. Specifically, a review of the execution, focus, planning, and
     reporting associated with the oversight entities could provide more substantial
     support to USMEPCOM review and oversight functions. The review could
     refine the organization’s oversight program and associated report formats in a
     systematic manner to provide the Commander, USMEPCOM with an adequate
     assessment of mission programs and significant related programs, and reduce
     redundancies. By conducting the analysis, USMEFCOM could consolidate
     oversight functions and reduce the number and diversity of oversight visits to
     MEPSs. Finally, additional benefits, without a loss of mission effectiveness,
     may be achieved by refocusing the role and responsibilities of the USMEPCOM
     Inoector General, the Office of Internal Review and Audit Compliance,
     CLEAR, the proposed MATT, and Sector Assistance Visit teams; by reducing
     the number of assistance visits, inspections, and reviews and the number of
     personnel associated with the oversight and review functions; and by eliminating
     th redundancy of USMEPCOM Headquarters directorate review programs.
    Finding A. USMEPCOM Organizational Structure and Oversight Efficiency



Recommendations, Management Comments, and Evaluation
Response
    A. We recommend that the Commauder, U.S. Military Entrance
    Processing Command:
           1. Conduct a functional review of its Headquarters and sector
    elements and their missious and individual programs to maximize economy
    aud effkieucy of operations and make organizational and staffiig changes
    as appropriate.

           2. Consolidate oversight functions and reduce the number and
    diversity of oversight visits to Military Entrance Processing Stations.

    Management Comments. The USMEPCOM concurred with comment, stating
    that the recommendations will be pursued from two directions. Internally, by
    continuing to implement the USMEPCOM Strategic Plan, which calls for
    identifying command-wide processes for possible reengineering and outsourcing
    to cost-effectively meet customer needs. USMEPCOM will also explore the
    recommendations from an external direction and has contacted the Army
    Manpower Analysis Agency. A representative from the Manpower Analysis
    Agency met, with USMEPCOM offkials on May 12, 1998, and presented a
    proposed method for addressing USMEPCOM needs and suggesting means of
    accomplishing a functional review.

    In addition to agreeing with the recommendations, USMEPCOM suggested
    changes to Table 1. While agreeing that the MA’IT was being considered for
    reinstatement, USMEPCOM stated that such action did not occur.

    Evaluation Response. While USMEPCOM recognized the potential for cost
    savings, it did not specifically comment on the identified monetary benefits
    through collocation of the Headquarters and western sector. Therefore, in
    response to this fina report, we request the Commander, USMEPCOM to
    provide comments on the potential monetary benefits or, alternatively, indicate
    that the monetary benefits will be provided at the completion of the ongoing and
    planned internal and external functional reviews.




                                        9
           Finding B. USMEPCOM Staffing
           Efficiency
           Of the 834 civilian positions and military billets reviewed at
           USMEPCOM, 355 either lacked consistency with the duties assigned,
           were unsupported, were not aligned to provide equal support to each
           DOD student testing program market, or were not mission essential.
           This occurred because USMEPCOM had not performed staffing and
           workload assessments. As a result, USMEPCOM could eliminate 65 to
           75 civilian positions and put about $12 million over the Future Years
           Defense Program to better use and realign 130 civilian positions to
           promote expansion of the DOD Student Testing Program and maximiz
           efficient use of the positions. Further, 66 military personnel could be
           reassigned to more essential functions within the Services and about
           $15 million could be put to better use over the Future Years Defense
           program.




Evaluation of USMEPCOM Personnel
    From our review of 834 civilian positions and military billets, 355 either lacked
    consistency with assigned duties, were not aligned to provide a balanced pursuit
    of assigned duties, or were not mission essential, as follows.

           - MEPS budget analyst positions were not consistent with the duties
    assigned and were not supported.

            - There was an inability to provide equal support to each DOD student
    testing program market and to satisfy the basic requirements of the education
    services specialist and test coordinator positions.

           - Military billets were authorized for laboratory technician duties that
    were not essential for the accomplishment of the command’s mission.


Number of Budget Personnel
    The number of budget and assistant budget analysts assigned to USMFEOM
    was clearly excessive. Budget position authorizations lacked consistency with
    the duties assigned and were not supported. This occurred because
    USMEPCOM had not performed a staffimg and workload assessment to justify
    the establishment and allocation of budget positions at each MEPS and
    Headquarters. A manpower review could result in a minimum of 65 to
    75 positions being eliminated and funds of about $12 million over the Future
    Years Defense Program (FYs 1999 through 2004) could be put to better use.


                                        10
                                      Finding B. USMEPCOM Staffing Efficiency




     Budget Position Authorizations.      A manpower review was not accomplished
     to justify or support the establishment of 159 civilian budget positions at
     USMEPCOM. A manpower review involves work measurem ent, time
     evaluation, and correlation of work load with standards. During FY 1992, the
     Manpower Section, USMEPCOM, initiated a study to justify the number of
     budget positions at the MEPSs but the review was not completed.
     Funds Admhished.         The USMEPCOM managed a budget of $123 million
     and $138 million for FYs 1996 and 1997, respectively. It operates 2 sector
     headquarters and 65 MEPSs nationwide. It employs 159 civilian budget
     personnel at those locations and USMEPCOM headqnarters.
     The amountof funds administered at each MEPS was not commensurate with
     the assigned budget positions. During FYs 1996 and 1997, the total funds
     administered by 130 budget personnel (2 per MEPS) were $28 million and
     $30 million, respectively. For FY 1997, the amount of funds administered by
     the individual MEPS ranged from $146,000 to $987,000. The funds were for
     operating expenses of the MEPS, excluding centralized procurements, lease,
     and personnel costs. In comparison with other Defense agencies, the
     USMEPCOM alignment and ratio of the number of budget positions to the
     amount of funds being adminismred was extraordinarily high. For example, the
     Defense Commissary Agency manages a worldwide account of approximately
     $6 billion with 44 budget personnel located at its Headquarters and 4 separate
     regions. Also, the DOD Educational Activity manages a budget of $1.3 billion
     and operates 118 schools overseas. It employs 13 budget personnel at
     13 subordinate districts and 10 budget analysts at its headquarters.

     Other Streamlining Iufluences. USMEPCOM has taken action to streamline
     accounting and payment procedures for meals and lodging. Assistant budget
     analysts performed the daily accounting for meals and lodging transactions and
     the monthly processing of contractors’ invoices. The USMEPCOM proposed
     the use of the international merchant purchase authorization card by the Military
     Recruiting Services, on a direct fund cite basis, as the instrument to pay for
     meals and lodging expenses. Contractors would be paid by the credit card
     issuer, who in turn would bill the Services directly. The procedure would
     eliminate most if not all of the accounting work presently performed by one of
     the two budget positions at each MEPS. Absorbing remaining duties into
     functions of other MEPS personnel could result in eliminating 65 to 75 budget
     positions. With an annual salary and benefits cost of $2 million annually,
     $12 million over the Future Years Defense Program could be put to better use.


Education Services Specialists and Test Coordinators
     The 65 education services specialist (ESS) and the 65 test coordinators were not
     aligned to provide equal support to each DOD Student Testing Program market
     and satisfy basic requirements. The USMEPCOM had not performed a staffmg
     and workload assessment to identify the positions needed based on strategic


                                         11
Finding B. USMEPCOM Staffing Efficiency



      goals and a realistic analysis of work required to accomplish its mission. As a
      result, the allocation of USMEPCOM ESS and test coordinator positions did not
      promote expansion of the DOD Student Testing Program and maximize efficient
      use of the positions.
      DoD Student Testing Program. In accordance with Army
      Regulation 601-222, “Armed Services Military Personnel Accession Testing
      Program,” October 7, 1994, USMEPCOM administers the DOD Student
      Testing Program. DOD Directive 1304.12, “DOD Military Personnel Accession
      Testing Programs, n June 22, 1993, states that the Manpower Accession Policy
      Working Group, chaired by a representative from the Office of the Assistant
      Secretary of Defense (Force Management Policy), is responsible for the Armed
      Services Vocational Aptitude Battery (ASVAB) development, implementation,
      and maintenance. The ASVAB, part of the DOD Student Testing Program, is
      offered primarily to high school juniors and seniors. Its purposes include
      providing the Services with access to the high school markets and recruiters
      with prequalified recruiting leads. In addition, it assists students in performing
      civilian and military career exploration.
      History of ESS and Test Coordinator Positions. The ESS position evolved
      from the need for a dedicated representative to promote expansion of the DOD
      Student Testing Program throughout the MEPS geographical area of
      responsibility. The requirement for a dedicated representative of the ASVAB
      increased during the 1970s when the test was used in high schools to screen
      possible candidates for military enlistment. At that time, the psychometric
      credibility of the ASVAB test and the associated role of military recruiters were
      criticized by the academic community and by some members of Congress. The
      criticism prompted the employment of one ESS at each MEPS. The major
      duties of the position included promoting expansion of the DOD Student Testing
      Program. In addition and concurrent with the development of the ESS position,
      an administrative assistant position, the ASVAB test coordinator, was created to
      provide clerical support for the DOD Student Testing Program. Like the ESS,
      one test coordinator was assigned to each MEPS, regardless of the size of the
      individual Student Testing Program market. All 65 ESS positions are pay grade
      General Schedule-11, and all 65 test coordinator positions are pay grade General
      Schedule-5.

      Assignment of ESSs and Test Coordinators. The allocation of BSS and test
      coordinator positions did not promote efficient employment of the personnel and
      maximum market coverage. In recent years, the requirements of the DOD
      Student Testing Program have been relatively constant whereas the duties to
      support it have increased. Although BSS responsibilities have remained
      consistent, test coordinator duties have expanded to include administering the
      ASVAB test, managing the MEPS Student Testing Program database, and
      scheduling all arrangements with high schools and recruiting service
      representatives.




                                          12
                                     Finding B. USMEPCOM Staffing Efficiency



       Market Coverage. The market coverage provided by the ESS and test
coordinator varied across the nation, as depicted in Table 2.

   Table 2. Results of School Year EM/97 Student Testing Program
                              (~v~v&~S              coverage)
                                                  Schools        11th and 12th
                   Eligible     11th and 12th   Tested and          Graders        Test
   MEPS*           Schools        Graders        Ipercent)           Tested      Sessions


 LOW
 Honolulu            100           32,524           80 (80)         5,026          125
 Albuquerque         103           24,495           89 (86.4)       5,079          114
 El Paso             114           35,043           95 (83.3)       6,041          117

 MEDIUM
 Little Rock         325          50,094            270 (82.8)      13,232         289
 Harrisburg          333          105,472           255 (76.5)      14,639         283
 New Orleam          342          82,371            237 (69.2)      18,238         251

 HIGH
 D&S                 523          131,115       281 (53.7)          15,706         297
 Los Angeles         687          302,170       268 (39)            37,993         353
 New York            776          292,809       198 (25.5)           8,864         241

 Mean:               332           90.161            207 (62)       11,842         242

 *MEPS categorized by number of eligible schools.

The test coordinator is tasked with conducting all necessary pre- and post-
ASVAB test session support. Table 2 demonstrates the varied magnitude of that
effort. As a result, the ESSs and test coordinators supporting the DOD Student
Testing Program markets, with the highest number of high schools and students,
were unable to fully support their respective markets, as reflected in the case of
MEPS New York City. Conversely, ESSs supporting medium and low markets
are able to provide more comprehensive support to the DOD Student Testing
Program, but still did not maxim& market coverage.
Use of Previous Analysis. Citing possible market saturation, the effects of
previous canvassing efforts, and other issues, USMEPCOM developed criteria
during 1989, to determine the appropriate number of ESSs at each MEPS. A
resulting study applied the criteria and identified seven MEPSs that should
increase their number of ESS positions from one to two, and five that should
decrease their number of ESS positions from two to one. However, the criteria
and all of the recommendations of that study were not implemented. At the
time of our review, we noted that there was one ESS position at each MEPS.
We believe that the USMEPCOM should revisit the work load of each ESS and
test coordinator and make staffi adjustments where appropriate.




                                        13
Fading B. USMEPCOM Staffing Effkiency



Military Laboratory Technicians

     The USMEPCOM was authorized 66 military laboratory technician billets that
     were not essential for the accomplishment of its mission. The duties and
     responsibilities of those billets did not support the need or the classification and
     could be accomplished by lesser-skilled health technicians with no loss of
     effectiveness or efficiency. The command had not performed a manpower
     review to identify laboratory technician billets needed based on a realistic
     analysis of work done and that the work be essential to accomplishing the
     mission of the command. If the command performed a study and adjusted
     authorization documents as required, military laboratory technicians could be
     available for reassignment to more essential functions within the Services.

     Laboratory Requirements. Each MEPS performed syphilis testing. DOD
     Instruction 6440.2, “Clinical Laboratory Improvement Program,” April 20,
     1994, implements Public Law 100578, “Clinical Laboratory Improvement
     Amendments of 1988,” which establishes policy, prescribes procedures to
     implement and administer the Clinical Laboratory Improvement Program within
     DOD, and establishes the Clinical Laboratory Improvement Program Office at
     the Armed Forces Institute of Pathology. The Office serves as the DOD Clinical
     Laboratory Amendment program manager and is responsible for identifying,
     registering, and certifying cliuical laboratory testing sites within DOD.
     Registration to certify a DOD clinical laboratory testing site as a moderate
     complexity testing site requires a certified laboratory technician to conduct rapid
     plasma reagin testing such as syphilis. The MEPS are considered moderate
     complexity testing sites. MEPS medical laboratories fulfiied the requirement
     by employing military medical laboratory technicians in their laboratories to
     conduct the syphilis testing.

     Laboratory Technician Adgnments. There are 66 military laboratory
     technicians assigned to USMEPCOM. Of that number, the Army provides 24,
     the Navy provides 30, and the Air Force provides 12. Within the military force
     structure, the Army had no shortages of military laboratory technicians. The
     Navy had a 6-percent shortfall of laboratory technicians, and its total
     requirement will increase by 15 percent on October 1, 1998, due to the
     increased training requirements of Public Law 100578, as implemented by
     DOD Instruction 6440.2. The Air Force had a lo-percent shortfall of laboratory
     t&UiCians.

     Laboratory Technician Skills. The duties and responsibilities of the laboratory
     technician billet did not support the need or the classification and could be
     accomplished by lesser-skilled health technicians with no loss of effectiveness or
     efficiency. To meet the requirements of DoD Instruction 6440.2, military
     laboratory technicians must fulfii extensive educational requimments. In the
     case of the Navy, the laboratory technician rating requires 12 months of
     training, at a cost of $85,000. However, the higher-skilled military laboratory
     technicians assigned to the 65 MEPS perform the same functions as the lesser-
     skilled health technicians. At least one civilian or militaxy health technician is
     also assigned to each MEPS. With the exception of syphilis screening, the
     health technicians perform all medical tests and examinations on military

                                          14
                                  Finding B. USMEPCOM Staffii           Efficiency



applicants, not performed by a physician. Therefore, during the course of a
3-year assignment to a MRPS, the skills of a military laboratory technician can
decrease, and the technicians can require recertification training at their next
duty station.
Manpower Review. USMEPCOM had not performed a manpower review to
identify laboratory technician billets needed based on a realistic analysis of work
done and the need for the work in accomplishing the USMEPCOM mission. In
July 1997, the Walter Reed Army Institute of Research did publish a cost-
effectiveness analysis of syphilis screening in military recruit applicants. The
study revealed that over a 4-year period the prevalence of final positive syphilis
tests was 0.021 percent. It also stated that modifying the existing USMEPCOM
contract for Human Immunodeficiency Virus screening to include syphilis
testing was more cost-effective than the current method of screening all
applicants at the MEPSs. However, because no screening is significantly more
cost-effective, the study’s fti recommendation was that the screening of
recruit applicants for syphilis cease at the MRPSs. In response to the study, in
September 1997, USMEPCOM recommended to the Deputy Assistant Secretary
of Defense (Military Personnel Policy) that syphilis screening be eliminated
from MEPS medical processing. A final decision on the recommendation is
pending. Further, MRPS chief medical officers acknowledged that if the
syphilis screening was eliminated or outsourced and the military laboratory
technicians were reassigned, there would be no loss of MEPS laboratory testing
efficiency or capacity.




Review of Budget Positions. We believe that a manpower review needs to be
performed to ensure staffing and organizational placement of the budget
personnel are efficient and effective. A minimum of 65 to 75 positions could be
eliminated at a savings of about $12 million over the future years defense
program.
Anal@ of ESS and Test Coordinator Positions. Given the success of the
DOD Student Testing Program and its role in support of the recruiting services’
missions, the employment of the ESS and test coordinator warrant further
analysis. An analysis of the size of MEPSs markets and staffing will afford
USMEPCOM the opportunity to enhance the overall effectiveness and efficiency
of the DOD Student Testing Program. In addition, USMRPCOM will gain
economy through the realignment of manpower assets and corresponding areas
of responsibility.

Reassignment of Military Laboratory Technkhs.           Finally, requirements of
the Clinical Laboratory Improvement Act can be satisfied by outsourcing or
eliminating syphilis testing. The policy assigning active duty military laboratory
technicians to individual MEPS did not efficiently employ the technicians’
training. The policy also negatively affected both the readiness and personnel
management of the Active Forces. Because most of the duties performed by the

                                    15
F’inding B. USMEPCOM Smmg Effkiency



     laboratory technicians were not directly related to their primary specialty, their
     work load could be assumed by a health technician. The 66 military laboratory
     technician billets could be reassigned to more essential functions within the
     Services and about $15 million could be put to better use over the Future Years
     Defense Program.


Conclusion
     Based on the personnel positions in the areas that we looked at, USMEPCOM
     could realize additional manpower efficiencies and put additional funds to better
     use by reviewing the entire staffing of the organization. In fact, the
     streamlining issues cited in this finding reflect only the tip of the iceberg.
     Further, we believe that USMEPCOM should use the services of an expert
     outside organization, such as the U.S. Army Manpower Analysis Agency, under
     the Assistant Secretary of the Army (Manpower and Reserve Affairs), to
     conduct the manpower review.


Recommendations, Management Comments, and Evaluation
Response
     B. We recommend that the Commander, U.S. Military Entrance
     Processing Command:

            1. Obtain tbe services of an independent agency to conduct a
     manpower review of the budget personnel positions at the Military
     Entrance Processin g Stations and within the Command Headquarters and
     eliminate unsupported positions.

             2. Obtain the services of an independent agency to conduct a
     manpower review of both the education services specialist and test
     coordinator positions and develop an alignment that economically,
     effectively, and effkiently supports the DoD Student Testing Program.

            3. Obtain the services of an independent agency to conduct a
     manpower review to determine the appropriate number of health
     technicians needed for each Military Entrance Processing Station and
     reassign all active duty military laboratory technicians to their respective
     Services as soon as practicable.
            4. Modify the existing contract for Human Immunodeficiency Virus
     screening to include syphilis testing, if the test is not eliminated from
     Military Entrance Processing Station medical processing.




                                          16
                                 X?inding B. USMEPCOM        Staffing Efficiency




Management     Comments. The USMEPCOM concurred with
Recommendations B. l., B.2., and B.3., stating that the internal strategic plan
and the external Army Manpower Analysis Agency review wi.lI allow
USMEPCOM to reach its maximum efficiencies and economies of operation.
With regards to Recommendation B.2.) USMEPCOM stated that
paragraph D.2.m. of DOD Directive 1304.12 mandates one ESS per MEPS, and
any change to the Directive would require action above its scope of authority.
In addressing both Recommendations B.3. and B.4., USMEPCOM stated that a
tentative decision to eliminate the rapid plasma reagin or syphilis test at the
MEPS is under review within the Office of the Under Secretary of Defense
(Personnel and Readiness) and Deputy Assistant Secretary of Defense (Health
Affairs/Clinical Services). USMEPCOM further stated that if the deletion is
approved, the need for a military laboratory technician at each MEPS will be
negated. However, the laboratory technician must be replaced by a service
medical specialist [mibtary health technician] because the laboratory function
(less the syphilis test) would remain.

Evaluation Response.      We consider the comments from USMEPCOM to meet
the intent of Recommendations B. 1. and B-2.; however, the USMEPCOM did
not comment on the associated potential monetary benefits, which we revised.
We agree with USMEPCOM that Recommendations B.3. and B.4. are tied
together in that they both involve syphilis testing of military applicants. We
also acknowledge that the tentative decision is under review within the Office of
the Under Secretary of Defense (Personnel and Readiness). However, the
USMEPCOM comments to Recommendation B.3. are not fully responsive and
it did not directly comment on Recommendation B.4. or state what course of
action it would take if the test is not eliminated from the MEPS medical
processing of applicants. We believe that Recommendation B.3. is still valid
because USMEPCOM has not performed a manpower review to determine if
replacement with military health technicians would be required considering that
each MEPS has at least one civilian or military health technician assigned.
Therefore, we request that USMEPCOM provide comments on
Recommendations B.3. and B.4. and the potential monetary benefits in response
to the final report.




                                   17
           Finding C. Inventory of Commercial
           Activities
           USMEPCOM had not complied with DOD requirements governing the
           Commercial Activities Program. Specifkally, USMEPCOM did not
           submit the FY 1996 inventory of commercial activities to the Office of
           the Under Secretary of Defense for Acquisition and Technology. This
           condition occurmd because USMEPCOM was neither aware of the
           inventory requirement nor who its senior commercial activities point of
           contact was. As a result, DOD could not assess the extent to which
           commercial and industrial functions at USMEPCOM were being
           performed by DoD civilian employees or private contractors.


Law and Regulations
    Title 10 United States Code, Section 2461.10 U.S.C. 2461, “Commercial or
    Industrial Type Function: Required Studies and Reports Before Conversion to
    Contractor Performance, n delineates the requirements for converting
    commercial or industrial type functions being performed by DOD civilian
    employees to performance by a private contractor. Section 2461(c) requires the
    Secretary of Defense to submit to Congress, no later than February 1 of each
    fiscal year, a written report describing the extent to which commercial and
    industrial type functions were performed by DOD contractors during the
    preceding year. Additionally, the Secretary is required to include in each such
    report an estimate of the percentage of commercial and industrial type functions
    of DOD that will be performed by DoD civilian employees, and the percentage
    of such functions that will be performed by private contractors, during the fiscal
    year in which the report is submitted.

    Of&e of Management and Budget Guidance. Offke of Management and
    Budget Circular No. A-76, “Performance of Commercial Activities,” August 4,
    1983, implements the requirements of 10 U.S.C. 2461. It requires Federal
    agencies to acquire commercial products or services if they can be procured
    more economically from commercial sources. The circular defines a
    commercial activity as the process resulting in a product or service that is or
    could be obtained from a private sector source. One of the steps in complying
    with the requirement of the circular is the identification of commercial activities
    within an agency and making a determination if the commercial activities are
    not inherently governmental functions, in which case the commercial activities
    could be contracted out. For the nonexempt commercial activities, agencies are
    required to perform a cost comparison study to determine if the function should
    be performed by in-house employees or by contractors. The circular also
    requires agencies to maintam a baseline of all in-house commercial activities
    performed by the agency, and to report, when required by the Office of
    Management and Budget, on their inventories of commercial activities that are
    exempt from the cost comparison requirement and the status of activities that are
    subject to a cost comparison.

                                        18
                                   Finding    C. Inventory of Commercial Activities




    DoD Guidance. DOD Instruction 4100.33, “Commercial Activities Program
    Procedures,” September 9, 1985, is the implementing instruction for the
    Commercial Activity Program within DoD. The Instruction requires each DOD
    Component to update at least annually its commercial activity inventory to
    reflect changes to its review schedules and the results of reviews, cost
    comparisons, and direct conversions and submit the updated inventory within
    90 days after the end of each fiscal year.

    The Office of the Under Secretary of Defense for Acquisition and Technology
    memorandum, “Commercial Activities Inventory and Annual Report to
    Congress,” November 27, 1996, directed DOD Components to submit the
    number of workyears that were performed by m-house employees and by
    contractors in FY 1996, as well as the projected workyears to be performed
    in-house and by contractors in PY 1997. Further, the memorandum required
    that the requested information be submitted for the 12 functional areas defined
    in the Office of Management and Budget Circular No. A-76 “Revised
    Supplemental Handbook,” March 1996.


USMEPCOM Inventory of Commercial Activities
    USMEPCOM had not complied with DOD requirements governing the
    Commercial Activities Program. Specifically, USMEPCOM did not submit the
    FY 1996 inventory of commercial activities as required. Our review of the
    DOD Inventory of Commercial Activities gave no indication that USMEPCOM
    submitted its inventory of commercial activities as required by the Office of the
    Under Secretary of Defense for Acquisition and Technology memorandum.
    USMEPCOM personnel explained that they were neither aware of the
    requirement to submit the inventory nor who its point of contact was within
    DOD. The purpose of the DOD request for commercial activities inventory was
    to develop a data base that would be used to comply with the reporting
    requirement to Congress, as required by 10 U.S.C. 2461. The DOD also used
    the inventory to assess the extent to which commercial and industrial type
    functions were being performed by civilian employees or by DOD contractors
    and its compliance with Office of Management and Budget Circular No. A-76.
    The primary aim of the Commercial Activities Program is to encourage
    competition between in-house resources and private contractors in the
    management and performance of commercial activities. Economy is achieved
    by reducing the cost of operating commercial activities by implementing in-
    house most efficient organizations or by contracting out the commercial
    activities. Because the required information was not prepared and submitted,
    DOD could not assess the extent to which commercial and industrial type
    functions at USMJZPCOM were being performed by DOD civilian employees or
    private contractors. Without the commercial activity inventory of
    USMEPCOM, the FY 19% report to Congress was not complete and there was
    no assurance that commercial and industrial type functions of USMEPCOM
    were being performed in the most economical and efficient mr.


                                         19
Finding    C. Inventory of Commercial Activities



Recommendation, Management Comments, and Evaluation
Response
          C. We recommend that the Commander, U.S. Military Entrance
          Processing Command implement the requirements governing the
          Commercial Activities Program.
          Management Comments. The USMEFCOM couured              with the finaing and
          recommendation.
          Evaluation Response. Although USMEFTOM concurred with the
          recommendation, we do not consider its comment responsive. USMEFCOM
          did not indicate what actions it has taken or plans to take to resolve the
          problems or specify a date by which the actions would be complete. Therefore,
          we request that USMEPCOM provide comments on the final report.




                                            20
Part II - Additional Information
Appendix A. Evaluation Process

Scope and Methodology
    Evaluation Process. We obtained and reviewed DOD, Federal, military, and
    USMEPCOM policies and regulations, as well as public laws. We interviewed
    DOD managers who control and manage USMEPCOM programs and mission
    functions. We obtained and reviewed USMEPCOM historical documentation,
    facial     records, instructions, procedures pertaming to all aspects of the
    operation and administration of USMEPCOM and staffmg from FYs 1993
    through 1997. We used those documents as criteria for measuring the efficiency
    and economy of operations and USMEPCOM readiness to meet mission
    requirements. We compared oversight missions for the various USMEPCOM
    entities to identify duplication. We also compared the staffii of budget
    personnel at USMEPCOM with other DOD agencies to determine consistency
    with the duties assigned.

    We visited the Office of the Deputy Assistant Secretary of Defense (Military
    Personnel Policy); Headquarters, USMEPCOM; both sector headquarters; and
    11 judgmentally selected MEPS. At Headquarters, USMEPCOM, we evaluated
    key operation and administrative functions in the command group and in the
    operation and support directorates. At the sectors and at the MEPSs, we
    evaluated key operation and administrative functions in the command,
    operation, and support groups. While at the MEPSs, we also met with senior
    liaison representatives from the Military Recruiting Services, to include the
    National Guard, to gain their observations as customers of USMEPCOM. We
    met with key USMEPCOM personnel, who were responsible for the
    management and execution of mission and significant administrative programs.
    We evaluated both mission and significant administrative programs using
    established criteria and sound management practices. From the senior personnel
    offices of the Army, the Navy and the Air Force, we obtained the respective
    staffmg levels of military laboratory technicians.

    Use of Computer-Processed Data. We did not use computer-processed data or
    statistical sampling techniques for this evaluation.

    Evaluation Type, Dates, and Standards. We performed this economy and
    efficiency evaluation from June 1997 through January 1998 in accordance with
    standards implemented by the Inspector General, DOD. Accordingly, we
    included tests of management controls considered necessary.
    Contacts During the Evaluation. We visited or contacted individuals and
    organizations within DOD. Further details are available upon request.




                                      22
                                                 Appendix A. Evaluation Procem



Management Control Program
    DOD Directive 5010.38, “Management Control Program,” August 26, 1996,
    requires DOD organizations to implement a comprehensive system of
    management controls that provides reasonable assurance that programs are
    operating as intended and to evaluate the adequacy of the controls.
    Scope of Review of the Management Control Program. We reviewed the
    adequacy of USMEPCOM management controls over applicant testing,
    background screening, budget, facilities management, financial accounting,
    general inspections, information management, internal reviews, management
    oversight and control, medical examinations, organization management,
    pre-enlistment, regulatory administration, staffing, and other related
    management oversight activities. We also reviewed USMEPCOM management
    controls over its implementation of the DOD Commercial Activities Program.
    We also reviewed the results of any selfevaluation of those management
    controls.

    Adequacy of Management Controls. We identified material management
    control weaknesses for USMEPCOM as defined by DOD Directive 5010.38.
    The USMEPCOM management controls for human resources management were
    not adequate to ensure that staffing was justified by workload and standards, and
    DOD Commercial Activities Program requirements were not adhered to.
    Recommendations B.l. through B.4., and C., if implemented, will correct the
    material weaknesses. A copy of the final report will be provided to the senior
    official responsible for management controls within the Army.

    Adequacy of Management’s Self-Evaluation. The USMEPCOM officials
    identified human resources as a key management control and responsibility and
    included it as an evaluation element in their USMEPCOM 20-l series circular.
    USMEPCOM 20 series circulars are evaluation checklists for evaluation of the
    key mission programs in each headquarters directorate. Under the
    USMEPCOM Internal Management Control Program each headquarters
    directorate is identified as a key management control area. The USMEPCOM
    20 series circulars are developed based on USMEPCOM regulations and
    military regulations, and address the key management controls as part of an
    evaluation topic. In our opinion, USMEPCOM 20 series circulars are adequate
    for the self-assessment of operational procedures and management. However,
    the weakness occurred in an area larger than management identified and
    reported, and management did not implement corrective actions for the specific
    material weaknesses identified. The USMEPCOM 20 series chculars do not
    address DOD and Federal requirements related to implemented USMEPCOM
    programs, and could allow related administrative requirements for procedures
    and management to be overlooked.




                                       23
Appendix A. Evaluation Process



Summary of Prior Coverage

      There has been no prior coverage of the U.S. Military Entrance FWcessing
      Command operations during the past 5 years.




                                        24
Appendix B. Other Matters of Interest
    USMEPCOM is performing adequate corrective measures to control the
    development and growth of the USMEPCOM Integrated Resources System
    (MIR!3), is performing satisfactory measures to become Year 2000 compliant,
    and has aggressively explored available options for outsourcing medical
    examinations. However, USMEPCOM has not given full consideration to other
    concerns raised and the impact tbat those concerns may have on any anticipated
    policy decisions regarding medical outsourcing. The concerns are discussed
    below.


Military Entrance Processing Command Integrated Resources
System
    USMEPCOM is performing adequate corrective measures to control the
    development and growth of MIPS and is moving to become Year 2000
    compliant.

    Status of MIRS. A cursory review of MIPS during the evaluation provided
    indications that numerous system deficiencies related to its initial development
    and implementation made the processing of USMEPCOM information
    unreliable. For example, data input into MIPS may not be received into the
    system or may be received in an incorrect data field; the system lacks
    interoperability among organization level systems; and the system does not
    allow processing of multi-form packets. As a result, systems administrators
    spend a significant portion of the day verifying and correcting system errors.
    As of September 18, 1997, software development progmmming in the
    USMEPCOM Information Management Directorate reflected 58 MIPS software
    development projects as outstanding, plus an estimated 15 additional projects
    that were planned for submission to the Directorate witbin the next month.
    Some of the projects are critical for mission accomplishment. For example, a
    MIPS interface with the Army recruiting service system is being developed, and
    interface with Air Force and Navy recruiting service systems is planned for
    future development. The interface will provide the recruiting services with
    access to needed applicant information. Also, the baselining of MIPS software
    packages is being performed to establish uniformity among system software
    packages used by the individual MEPS. The two projects are critical to
    effective and efficient mission accomplishment.

    Corrective Measures. To control the development and growth of its automated
    information system, USMEPCOM initiated corrective measures. It
    implemented a Command Configuration Management Program that established a
    Configuration Control Hoard. The Board evalutes and takes action on system
    change proposals and information mission needs statements. Cost benefits and
    functional review and analysis is conducted on any new MIRS initiative and
    MIPS program interface, to ensure that proposed system changes are limited to
    only those necessary. USMEPCOM has developed a tracking system to account

                                        25
Appendix B. Other Matters of Interest



      for and control changes, enhancements, and modifications to MIPS. All
      changes to existing baseline hardware and software must be properly
      documented, tested, and evaluated.
      Compliance with Year 2000 Requirements. USMEPCOM is addressing
      Year 2000 issues. End-to-end Year 2000 systems testing on MIRS is projected
      for August 1998. As of September 1997, USMEPCOM had one compliant and
      two noncompliant systems. The joint computer center system, the
      USMEPCOM host mainframe master database, is Year 2000 compliant;
      whereas MIPS and the system supporting the computerized adaptive testing
      version of the ASVAB were not. Both noncompliant systems were in the
      Year 2000 Compliance Validation Phase. MIR!5 interfaces only with the joint
      computer center system and does not interface with any Service or Federal
      systems. Also, USMEPCOM is verifying Year 2000 compliance for associated
      facility and equipment maintenance systems at each MEPS and throughout
      USMEPCOM.


USMEPCOM Study of Outsourcing Applicant Physical
Examinations
      Prior to our evaluation, USMEPCOM initiated a study to outsource remote site
      medical examinations. In addition, recently enacted legislation required DOD to
      provide a report to Congress by March 31, 1998, on the medical outsourcing
      initiatives at USMEPCOM. USMEPCOM modified its initial course of action
      to meet the milestone and continued to aggressively explore available options.
      However, USMEPCOM had not given full consideration to a number of
      concerns raised and the impact those concerns could have on any anticipated
      policy decisions regarding medical outsourcing.


      Statutory Requirement. Public Law 105-85, “National Defense Authorization
      Act for Fiscal Year 1998,” section 736, “Use of Personal Services Contracts for
      Provision of Health Care Services and Legal Protection for Providers,” requires
      the Secretary of Defense to provide a report on the feasibility of alternative
      means for performing the medical examinations that are routinely conducted at a
      MEPS.

      To satisfy the statutory requirement, USMEPCOM should evaluate alternatives
      that would reduce the varied costs of performing quality medical examinations
      while remaining responsive to the needs of the recruiting services. Further, any
      alternative means for performing routine medical examinations must reflect the
      observations and experiences of both subordinate and supported organizations.

     Applicant Physical Examina tions. During FY 1997, USMEPCOM conducted
     a cost analysis to identify the cost of an enlistment physical at each of the
     65 MEPS. The analysis revealed that small MEPS located in the western half
     of the continental United States have the highest cost per physical. A
     contributing factor is that some MPPS support expansive and thinly populated

                                         26
                                         Appendix B. Other Matters of Interest



areas of responsibility. Thus, the high cost of the medical examinations relates
to the distances military applicants have to travel to the nearest MEPS. For
example, MEPS Salt Lake City processes military applicants from Nevada,
Utah, and Wyoming as well as portions of Arizona and Idaho. Another factor
in the high cost of medical examina tions is the low ratio of applicants processed
per MEPS medical technician. Across USMEPCOM, the cost per medical
examination varied from $95 at MEPS Montgomery, Alabama, to $481 at
MEPS Anchorage, Alaska. The average cost per medical examination at
USMEPCOM was $175. Upon receiving that information, USMEPCOM
initiated a study to explore more economic alternatives to the MEPS medical
examination. The study was being conducted on an incremental basis,
beginning with exploration of potential sources for contracted examinations.
After those sources and appropriate funding have been identified, a pilot project
will be conducted at several of the MEPS in the western sector. Initially, the
project will be voluntary for the military recruiting services. Recruiters will
have the option to either take advantage of the contracted medical examination
or to transport applicants to the nearest MEPS for processing. USMEPCOM
should further evaluate the issue after the results of the pilot project have been
recorded.

Other Concerns. We reviewed the proposal to outsource medical examinations
with various USMEPCOM personnel, as well as members of the military
recruiting services. While all those interviewed agreed that inefficiencies with
the process exist, concerns were raised that warrant the consideration of
USMEPCOM prior to establishing a policy for outsourcing medical
examinations. Among the chief medical officers’ concerns were the perspective
of the contracted physicians and the potential increase!of entry level separations.
Specifically, they were concerned that the medical discretion applied by
contracted physicians will not reflect the realities of military service. For
example, an orthopedic range of motion that may be acceptable to the
contracted physician may not petit an applicant to perform all general military
functions or service specific physical exercises. We provided a consolidated
list of those concerns to the Commander, USMEPCOM; To ensure
completeness and accountability, we believe the concerns should be considered
and addressed in the development of the statement of work for the medical
examination contract.




                                    27
Appendix C. USMEPCOM Organizational
Structure
   Tables C. 1 and C.2 show the senior and subordinate commands of
   USMEPCOM and the internal organization and personnel strengths.




                    Table C.l. Organizational Structure


                                 Assistant Secretaryof Defense
                                 (Force Management Policy)

                                                 I

                                  Deputy Assistant Secretary
                                          of Defense
               Executive          (Military Personnel Policy)
                 Agent:
               U.S. AmIy
                                                 I

                                    united states Mitary
                                Entraxe Processing chnmand
                                     (Chicago, Illinois)

                                      I                    I
                             EasternSector             westem Sector
                           (Chicago, Illinoii)       (Denver, Colorado)      _
                                                                         A
                                      I                    I

                                   33                        32
                            Military Entrance        Military Entrance
                              Prucessing               Processing
                                 Stations                 stations




                                          28
                    Appendix C. USMEPCOM Organizational           Structure




             Tabie C.2. USMEFCOM Internal Organhation




                              1                          I
   Eastern Sector        Headquarters            Western Sector
                         Directorates
*Command Group                                *Command Group
                         *Facilities
*Operations Group        @Human               *Operations Group
                          ResOurceS
*Support Group                                6qpot-t    Group
                         lhfonnation
                          Management     [
                         lInspector                      I
                          General
          MEPS           @MedicalPlans                MEPS
                          & Policy
lCommand Group                               @CommandGroup
                         *operations
*Operations Group        *Resource           *operations GKnlp
                          Management
alpport    Group                             lqport     Group
                                         i




                             29
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition and Technology
  Deputy Under Secretary of Defense (Industrial Affairs and Installations)
  Director, Defense Logistics Studies Information Exchange
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Offker
  Deputy Comptroller (Program/Budget)
Under Secretary of Defense for Personnel and Readiness
Assistant Secretary of Defense (Force Management Policy)
  Deputy Assistant Secretary of Defense for Military Personnel Policy
Assistant Secretary of Defense (Health Affairs)
Assistant Secretary of Defense (Reserve Affairs)
Assistant Secretary of Defense (Public Affairs)

Department of the Army
Commander, Army Training aud Doctrine Command
Auditor General, Department of the Army
Assistant Chief of Staff for Installation Management
Commander, Army Recruiting Command

Department of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)
Auditor General, Department of the Navy
Chief, Bureau of Naval Personnel
Commander, Navy Recruiting Command
Commanding General, Marine Corps Recruiting Command

Department of the Air Force
Assistant Secretary of the Air Force (Finaucial Management and Comptroller)
Auditor General, Department of the Air Force
Deputy Chief of Staff for Personnel
Commander, Air Force Recruiting Command


Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Finance and Accounting Service
Director, Defense Logistics Agency
Director, National Security Agency
   Inspector General, National Security Agency

                                          30
                                                    Appendix D. Report Distribution



Other Defense Organizations (Cont’d)
Inspector General, Defense Intelligence Agency
Chief, National Guard Bureau
   Inspector General, National Guard Bureau
Commander, United States Military Entmnce Processing Command

Non-Defense Federal Organizations and Individuals
Offke of Management and Budget
Director, Office of Personnel Management
   Inspector General, Office of Personnel Management
General Accounting Office
   National Security and International Affairs Division
      Technical Information Center
   Health, Education, and Human Services Division

Chairman and ranking minority member of each of the following congressional
  committees and subcommittees:

  Senate Committee on Appropriations
  Senate Subcommittee on Defense, Committee on Appropriations
  Senate Committee on Armed Services
  Senate Committee on Governmental Affairs
  Senate Special Committee on the Year 2000 Technology Problem
  House Committee on Appropriations
  House Subcommittee on National Security, Committee on Appropriations
  House Committee on Government Reform and Oversight
  House Subcommittee on Government Management, Information, and Technology,
    Committee on Government Reform and Oversight
  House Subcommittee on National Squrity, International Affairs, and Criminal
    Justice, Committee on Government Reform and Oversight
  House Committee on National Security

Department of Transportation
   Commandant, United States Coast Guard
Director, Selective Service System




                                          31
Part III - Management Comments
U.S. Military Entrance Processing Command
Comments




    MCDR                                                      17   Apr 98




                                                         20301-4000
    FOR Office of the Inspector General, Department of Defense, 400
    Army Navy Drive, Arlington, VA   22202-2884
    SUBJECT : Draft Rvaluation Report on the U.S. Military   Entrance
    Processing Command KLSMRPCOM) Project No. 7RB-9035

    1.  We have reviewed subject draft report and provide the
    following comments:
         a. Finding A. Concur with comment. In general, we agree
    that the finding identifies potential to realize certain
    efficiencies of operations and economical cost savings.
    Specifically, each of the recommendations for this finding are
    addressed below.
               (1) Recommendation 1 has great merit and will be
    pursued from two directions. Internally, this command has
    already implemented a portion of the USMEPCOM Strategic Plan
    which calls for identifying countand-wideprocesses for possible
    re-engineering and outsourcing to cost effectively meet customer
    needs. This bottom-up review begins with a survey of customer
    need (Recruiting Services and Recruit Training Centers) which in
    turn will drive a set of recommended options for Military
    Entrance Processing Stations (MEPSI structure and location. The
    decisions made on those options will drive associated issues -
    command and control apparatus, headquarters structure, amount and
    types of oversight functions, manpower, staffing and contract
    versus in-house work. In order to avoid a myopic plan, USWPCOM
    will also explore this reconunandationfrom an external direction.
    We have already acted upon another recommendation within the
    subject report which suggests that USMEPCC44enlist the assistance
    of an external rwiew organization to conduct a manpower review.
    The U.S. Amy  Manpower Analysis Agency (MAA) has been contacted
    concerning this and other needs, and has reviewed the subject
    report. A representative from MAA is scheduled to brief USMEPCOM
    on 12 May 98 to present a proposed method, with associated
    estimated coats and tima frame, of addressing our needs. The
    internal strategy review will provide a framework with which the
    MAA can further suggest a means of accomplishing this
    reconnaendationto the find:-.;.




                                     34
                  U.S. Military   Entrance Processing Command Comments


                                                                         Final Report
                                                                          Reference




MCDR
SUBJECT:  Draft Evaluation Report on the U.S. Military   Entrance
Processing Cormrand WSMBPCOM) Project No. 7RB-9035

Since this study will incur significant cost to USMEPCOM,
budgetary actions will be implemented to seek additional funding
for Fy99 in order to conduct the external study. MAA has
indicated that the earlieat they could begin the project would be
January 1999. Civilian contractor support will alao be reviewed
to determine the most cost-effective means of supplementing our
internal review.
          (2) Reconnnendation2 will be initially addressed with
the above mentioned internal study. However, to ensure USMSPCOM
has identified the greatest potential increase in organizational
efficiency, and attendant reduction in operational expenses,
final actions will be deferred until the final report by either
MAA or a similar civilian contractor. Related to reconnrendation
2, and for purpose of accuracy, the following corrections to
Table 1 of Finding A are offered:
               (a) Remove "XW for CLEAP under Logistics                    Deleted
Functiona: AVMF Program. The CLEAP program is concerned aolely
with logistics matters while the AVMF Program is a Financial
Policy matter. The CLEAP dcea not review AVMF matters.
               (b) Remove entire MATI column from the Table.               Revised
The MATI haa not been performed since May 1994. At the time of
the subject evaluation, members of thie command indicated that a
MATT was being considered for December 1997; however, the MATT
was never reinstated and the viait never occurred.
                (cl Amend the Table, or completely delete
reference to IRAC, to correctly reflect the role of the IRAC at
USMRPCOM. The purpose of the Table waa to delineate individual
review entities which routinely travel to MSPS on a scheduled
basis in order to conduct oversight/review functions. While
capable of covering all areas listed in Table 1, the IRAC travels
to conduct single-point audits on an on-call basis per guidance
from Commander,USMEPCOM.  Thus, the visits are neither scheduled
nor conducted on any type of routine basis.
               (dl Eliminate the HEPS CIP column since it ia the           Deleted
function of any/every organization to internally conduct
recurring and scheduled self-evaluations of their operations.
Inclueion in thia Table is not in consonance with the purpose of
showing duplicitoua efforts since the MEPS CIP is both expected
and mandated by regulatory guidance.



                                  2




                            35
U.S. Military        Entrance   Processing   Command Comments




         MCDR
         SUBJECT: Draft Evaluation Report on the U.S. Military Entrance
         Processing Command (USWEPCOM) Project No. 'IRB-9035

              b. Finding B. Concur with comment. AS prwiously
         mentioned, an internal strategic plan initiative will begin the
         process of determining the correct number or need for positions
         such as the Budget Assistant CBA), Education Services Specialist
         (LSS), Test Coordinator (TC) and Health Technician as identified
         under this finding in reconmmndations 1 - 3. The external review
         conducted by an organization such as MAA, or civilian contractor
         equivalent, will provide the best overall set of options to
         realize maximum efficiencies and economies of operation.
         Specifically, the following is offered as update or
         clarification:
                   (1) Recomnndation 2 focuses on the issue of having
         one ESS per MBPS versus being workload driven. While the
         internal and external studies will address this issue, it should
         be noted that DOD Directive 1304.12, dated 22 June 1993,
         paragraph D.2.m mandates one ESS per MEPS. Thus, any change
         recoraaendedby either study will need to be predicated upon a
         change to the DoD Directive, an action which is above USMRPCOM
         scope of authority.
                   (2) Recommendations 3 and 4 are actually tied together
        since the purpose of the Laboratory Technician billet at a MEPS
        is predicated upon that same technician performing the Rapid
        Plasma Reagent (RPR) or syphilis test. Currently, a tentative
        decision to eliminate the RPR test at the MRPS is under review at
        the Deputy Assistant Secretary of Defense (Military Personnel
        Policy) and Deputy Aseietant Secretary of Defense (Health
        Affairs/ Clinical Services) level. If the RPR deletion is
        approved, the need for a military Laboratory Technician at each
        WRPS will be negated. However, the laboratory technician must be
        replaced by a service medical specialist since the lab function
        (minus RPR) remains. Thus, the studies proposed for the rest of
        this finding will include the issue of any additional Health
        Technicians.
                C.     Finding C.   Concur with finding and recomncndation.
        2. USMEPCOM was additionally tasked to address the Adequacy of
        Management Controls as mntioned in Appendix A of subject draft
        report. Further, the draft report stated that if Recoeunendatione
        B.l. through B.4. and C. are implemented, material weaknesses
        will be corrected. Subject to our previous comments on these
        same recommendations, we concur with that statement.



                                               3




                                               36
                                                                    Final Report
                                                                     Reference




MCDR
SUBJECT : Draft Hvaluation Report on the U.S. Military Entrance
Processing Comnand (USMHPCOM) Project No. 7RH-9035

Additionally, prior to the draft report being issued, Internal
Review (IR) of USMHPCOM began a nine month effort in November
I997 to replace all existing Series 20 Circulars with Management
Controls Checklists. The evaluation checklists will identify key
management controla at three levels within USMRPCOM -
Headquarters, Sectors, and MHPS. The evaluation checklists will
address DoD and Federal requirementa related to USMHPCOM programs
aa well ae the operational, administrative, managerial, and
financial requirements. Theme checklists will allow for the
evaluation of key mission programs in each headquarters
directorate and continue the self-assessment of operational
procedures and management practices at the Sectors and MBPS.

3. While Appendix B does not require conment per the guidance
set forth in the draft report, there ie one significant error
which requires correction. Paragraph 3 (Status of MIRS) of page       Page 25
24 to the draft report states in part..."Numerous deficiencies in     Revised
MIRS makes the processing of USMHPCOM information unreliable."
This statement is totally inaccurate and does not match the
preceeding and following verbiage in the &aft report. It is
highly recommended, for consistency and accuracy purposes, that
this sentence be deleted from the final report.



                               Z%ii%?%%
                               Colonel, &A
                               Coernanding




                                 4




                          37
Evaluation Team Members

This reportwas prepared by the Readhss and Loj#stics !3upport Directorate, Office of the
Assistantlmpector Generalfor Auditing, DOD.

Shelton R. Young
RichardA. Brown
Warren G. Anthony
MAJ Andrew L. Vonada, USMC
Oscar I. San Ma&o
